                             OFFICE OF THE INSPECTOR GENERAL
                             CORPORATION FOR NATIONAL AND
                                   COMMUNITY SERVICE




                              PRE-AUDIT SURVEY OF THE
                      MAINE COMMISSION FOR COMMUNITY SERVICE

                                   OIG Audit Report Number 0 1- 19
                                         October 27, 2000




                                               Prepared by:

                                            KPMG LLP
                                         2001 M Street N.W.
                                        Washington, DC 20036

                                Under CNS OIG MOU # 98-046-5003
                                   With the Department of Labor
                                   DOL Contract # J-9-G-8-0022
                                        Task # B9GOV203




This report was issued to Corporation management on January 24, 2001. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than July 23, 2001, and complete its corrective actions by January 24, 2002.
Consequently, the reported findings do not necessarily represent the final resolution of the issues presented.
                                  Office of Inspector General
                        Corporation for National and Community Service                     CORPORATION

                                                                                           FOR NATIONAL
                                   Pre-Audit Survey of the
                           Maine Commission for Community Service
                                                                                            SERVICE
                               OIG Audit Report Number 01-19



Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although the
Corporation began state commission administrative reviews in 1999, the Corporation, historically, has
not carried out a comprehensive, risk-based program for grantee financial and programmatic oversight
and monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part
of state-wide audits under the Single Audit Act due to their size relative to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration, and
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting). For
each survey, we will issue a report to the state commission and to the Corporation communicating the
results and making recommendations for improvement, as appropriate.

We engaged KPMG LLP to pe$orm the pre-audit survey of the Maine Commission for Community
Service. Based on the limitedprocedurespei$ormed, KPMG concluded that the Commission administers
an open, competitive process to select national service subgrantees. KPMG also concluded that the
Commission has established adequate control policies and procedures for fiscal administration, and
established controls to evaluate and monitor subgrantees. However, in these two areas, KPMG noted
areas needing improvement and made recommendations thereon. The report also recommends that the
Corporation follow-up to ensure appropriate corrective actions are put into place to correct the
conditions reported herein, and the pe$ormance of limited scope audit procedures for all program
years.




                                                                                        Inspector General
                                                                                        1201 New York Avenue, NW
                                                                                        Washington, DC 20525
CNS OIG reviewed the report and work papers supporting its conclusions. We agree with the findings
and recommendations presented therein.

In response to a draft of this report, both the Maine Commission and the Corporation expressed
disagreement either in whole, or in part, with the findings and recommendations. (See Appendices C
and D.) The Corporation's response mischaracterizes the findings and recommendations and fails to
recognize that the recommendations are made to address the specific conditions noted and, if
implemented, will result in more effective grant administration and monitoring.

As described on page 4 of their report, KPMG reviewed the responses and opted not to change the
findings and recommendations section of the report. We concur with KPMG's decision.
                                  Pre-Audit Survey of the
                        MAINE COMMISSION FOR COMMUNITY SERVICE
                                     Table of Contents



RESULTS IN BRIEF .......................................................................................................................
                                                                                                                                   1

BACKGROUND .............................................................................................................................
                                                                                                                                    2

OVERVIEW OF THE MAINE COMMISSION .............................................................................
                                                                                                           3

OBJECTIVES. SCOPE. AND METHODOLOGY .........................................................................
                                                                                                         3

FINDrNGS AND RECOMMENDATIONS .................................................................................... 5

APPENDIX A. COMMISSION FUNDING: 1994-95 THROUGH 1999-2000 .........................A.1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
                                                                                                                            B .1
   METHODOLOGY ................................................................................................................

APPENDIX C. MAINE COMMISSION FOR COMMUNITY
   SERVICE RESPONSE ........................................................................................................ C . 1

APPENDIX D. CORPORATION RESPONSE.....................................................................D.1
               2001 M Street, N.W.
               Washington, D.C. 20036




October 27, 2000


Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a pre-audit survey of the Maine Commission for
Community Service (the Commission). The primary purpose of this survey was to provide a preliminary
assessment of:

   The adequacy of the pre-award selection process;
   The fiscal procedures at the Commission; and
   The effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps Member
   activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be performed at the
Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following preliminary
assessments regarding the Commission's systems for administering its ArneriCorps grants:

        The Commission administers an open., competitive process to select national service subgrantees.

        The Commission has developed adequate control policies and procedures to administer the
        Corporation's grant funds. However, we noted employee access authority to the Web Based
        Reporting System (WBRS) should be more appropriately restricted, and the Commission should
        enforce its procedures regarding completion and timely submission of Financial Status Reports
        (FSRs) by subgrantees.

        The Commission has established controls to evaluate and monitor subgrantees. However, the
        Commission should improve its process for documenting the results of its evaluation and
        monitoring activities.

The section below entitled Findings and Recommendations describes the weaknesses noted above in
further detail and addresses additional issues noted during the survey.

Based on our preliminary assessment, we recommend the performance of a limited-scope audit for
program years 1994-95 through 1999-2000 with focus on fiscal reviews, support for allowable costs. and
financial reporting.




 1111              KPMG LLP KPMG LLP a U S lhmlted lhabilty partnershp 8s
                   a member of KPMG lnternat~onala Swss aSsOC~aTIOn
Additionally, we recommend that the Corporation follow up with the Commission to determine that
appropriate corrective actions are put into place to address the conditions reported herein, and that the
Corporation consider these conditions in its oversight and monitoring of the Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the National and
Community Service Act of 1990, established the Corporation for National and Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements to State
Commissions, nonprofit entities and tribes and temtories to assist in the creation of full and part time
national and community service programs. Through these grantees, AmeriCorps Members perform
service to meet the educational, human, environmental, and public safety needs throughout the nation,
especially addressing those needs related to poverty. In return for this service, eligible Members may
receive a living allowance and post service educational benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National funds to
State Commissions. State Commissions are required to include 15 to 25 voting Members. Each
Commission has a responsibility to develop and communicate a vision and ethic of service throughout its
State.

The Commissions provide AmeriCorps funding to approved applicants for service programs within their
states and are responsible for monitoring these subgrantees' compliance with grant requirements. The
Commissions are also responsible for providing training and technical assistance to AmeriCorps State
and National Direct programs and to the broader network of service programs in the state. The
Commissions are prohibited from directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions maintain
internal controls that provide for accurate, current, and complete disclosure of the financial and
programmatic results of financially assisted activities, and provide effective control and accountability
for all grant and subgrant cash, real and personal property, and other assets.
Overview of the Maine Commission

The Maine Commission for Community Service, located in Augusta, Maine, has received AmeriCorps
grant funds from the Corporation for National and Community Service since program year 1994-95. The
Commission operates as part of the State of Maine's Planning Office and has 4 employees: an Executive
Director, a ProgradGrant Officer, a Technical AssistanceITraining Officer and an administrative
assistant. The Executive Director has been with the Commission since 1996, as have several other
members of the staff. The ProgramIGrant Officer joined the Commission in 1998 and the Commission
has not experienced any turnover of its key employees since then.

As part of the State of Maine's Planning Office, the Commission is annually subject to the OMB Circular
A-133 audit performed by the Maine State Auditors' Office. However, the Commission's AmeriCorps
grants have never been tested as a major program.

The Commission provided us with the following information for all program years:

                                                                         Number of
                                                                         Subgrantees
                             Total Corporation       Number of         Subject to A-1 33
         Program Year            Funding             Subgrantees           Audits




Appendix A contains more detailed information on funding received from the Corporation during
program years 1994-95 through 1999-2000.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and Community
Service, to provide an assessment of the systems and procedures in place at the Commission for
administering its AmeriCorps grants and for monitoring the fiscal activity of subgrantees. The primary
purpose of this pre-audit survey was to provide a preliminary assessment of:

    The adequacy of the pre-award selection process;
    The fiscal procedures at the Commission; and
    The effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps Member
    activities and service hours and program accomplishment reporting.
We were also to report on the recommended scope of additional audit procedures to be performed at the
Commission.

Our survey included the following procedures:

    Reviewing applicable laws, regulations, grant provisions, the Corporation's State Administrative
    Standards Tool, and other information to gain an understanding of legal, statutory and programmatic
    requirements;

    Reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission;

    Obtaining information from Commission management to complete flowcharts documenting the
    hierarchy of AmeriCorps grant funding for program years 1994-95 through 1999-2000; and

    Performing the procedures detailed in Appendix B over the Commission's internal controls, selection
    of subgrantees, administration of grant funds, and evaluation and monitoring of grants.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source documents.
Finally, we summarized the results of our work to develop the findings and recommendations presented
in this report. We discussed all findings with Commission management during an exit conference on
October 27,2000.

Our procedures were performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We were not engaged to, and did not, perform an audit of any
financial statements, and the procedures described above were not sufficient to express an opinion on the
controls at the Commission, or on its compliance with applicable laws, regulations, contracts and grants.
Accordingly, we do not express an opinion on any such financial statements, or on the Commission's
controls or compliance. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's and
Corporation's responses to our findings and recommendations are included as Appendix C and D
respectively. We have incorporated the corrections in factual information referred to in the
Commission's response in this report. However, we continue to believe our recommendations presented
in the Findings and Recommendations section of this report, if implemented, will result in improvements
to internal controls over Commission operations. Accordingly, that section of this report remains
unchanged.
Findings and Recommendations

Selecting Subgrantees

According to 45 CFR Section 2550.80(b)(l), "Each State must administer a competitive process to select
national service programs to be included in any application to the Corporation for funding."

The Commission administers an open, competitive process to select national service subgrantees. The
Commission advertises funding availability through three newspapers that together have a distribution
area that covers the entire state, and via e-mail notices to all programs and commissioners advising them
of availability of funds. In addition, selection officials sign conflict of interest statements annually,
receive an instruction package, and use a standard form to evaluate each applicant, which includes an
evaluation of the applicants' financial systems. However, we noted the following matter related to the
selection of subgrantees process.

        Evaluation of Grant Applications

During our review, we noted that the peer review forms used to evaluate grant applicants do not include
the names of the individuals who reviewed the applicants. Since the reviewers' names are not disclosed
on the review form, it is difficult to establish a connection between each reviewer and his or her
corresponding signed conflict of interest forms.

No recommendation for this finding is considered necessary because the policy of not disclosing the
name of the reviewers on the review forms is consistent with the State's policy and is done to ensure the
anonymity of the reviewer.

Administering Grant Funds

As part of the grant administration process, "Grantees are responsible for managing the day-to-day
operations of grants and subgrant supported activities. Grantees must monitor grant and subgrant
supported activities to assure compliance with Federal requirements and that performance goals are
being achieved. Grantee monitoring must cover each program, function or activity." (45 CFR Section
254 1.400(a)).

The Commission has developed and implemented procedures that are intended to provide reasonable
assurance that grant funds received from the Corporation are properly administered. Procedures are in
place to withhold funding payments if subgrantees do not submit Financial Status Reports (FSRs) timely;
to manage cash draw downs and disbursements to subgrantees; and to ascertain whether subgrantees
have met their matching requirements. The Commission's personnel have adequate skills and experience
to manage and administer Corporation grant funds. However, we identified the following matters related
to the grant administration process.

         WBRS Access Controls

We determined that the Commission has implemented WBRS. Our discussions with Commission
personnel indicate that they are using WBRS and that they are very satisfied with its performance.

The Commission, along with the Corporation, has established a set of controls for the use of WBRS by
the subgrantees. Most of these controls are embedded in the system, such as automated calculation of
   mm!
costs in the FSR, tracking of AmeriCorps Members' hours and projection of hours to fulfill
requirements, and automated carry-forward of financial and reporting data from prior periods.

However, we noted that more then one user at the subgrantee level was granted "Program Director"
and/or "Finance Director" access authority within a specified program. In addition, we noted that more
than one profile had been established for a single user. The integrity of the reporting process through
WBRS could be compromised with users gaining access to levels of authority that do not coincide with
their employee profiles.

        Lack of Timely Submission of Financial Status Reports

According to 45 CFR, 2541.410 (b)(4), "When reports are required on a quarterly or semiannual basis,
they will be due 30 days after the reporting period."

We examined the entire population of FSR submissions from inception through June 30,2000 (23
reporting periods), and noted that 10 PDAT, 12 Administrative, and 8 AmeriCorps consolidated FSRs
were not submitted to the Corporation on a timely basis. We also noted that five Administrative FSRs
and six AmeriCorps consolidated FSRs for program years 1994-95, 1996-97 and 1999-2000 were
missing from the Commission's files. In addition, we noted that copies of e-mail correspondence with
subgrantees, in accordance with the Commission's policy of using e-mail to follow up with subgrantees
regarding the late submission of FSRs, are not always maintained to verify that this policy is being
consistently followed.

        Control Weaknesses over Drawdowns

During our review, we noted that support for a $38,393 drawdown made during program year 1994-95
did not provide specific information on expenses being reimbursed for the Commission's Administrative
grant. In addition, we noted 1 out of 10 AmeriCorps subgrantee reimbursements selected corresponding
to program year 1999-2000 was made approximately 40 days after the drawdown process began.

No recommendation for this finding is considered necessary because adequate supporting documentation
was available for drawdowns for program years 1995-96 through 1999-2000. In addition, no exceptions
were noted regarding the timeliness of reimbursements for program years 1994-95 through 1998-99 and
the late reimbursement noted in program year 1999-2000 appeared to be an isolated incident.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its grant
administration process as follows:

    Develop and implement control procedures to restrict the level of access authority granted to the
    different users of WBRS, as appropriate.

    Enforce procedures to ensure compliance in the preparation and timely submission of FSRs. In
    addition, we recommend that the Commission enforce its policy regarding e-mailing subgrantees
    when their FSRs are late.
Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrant-supported activities to assure
compliance with applicable Federal requirements and that performance goals are being achieved. The
Commission has established controls to evaluate and monitor subgrantees, which include reviewing
program and financial reports and scheduling annual site visits for each subgrantee during the grant
period. However, we identified the following areas for improvement related to the evaluation and
monitoring of subgrantees.

       Lack of Adequate Program Review Documentation

 The Commission's current policy is to perform program reviews every year and fiscal reviews every
 third year during subgrantee site visits. The Commission relies on OMB Circular A-133 reports for
 fiscal monitoring in other years, even though the AmeriCorps grant may not be subject to detail testing
 as a major program for the subgrantee. Commission policies require the use of a preprinted program
 review and fiscal review checklist to assure itself that procedures performed during these reviews are
 complete. However, the Commission could not provide adequate documentation supporting annual
 program and fiscal reviews for the 19 subgrantees' site visits we selected for review. Nine program
 review checklists for program years 1994-95 through 1998-99 and 14 fiscal review checklists for
 program years 1994-95 through 1999-2000 were missing from the Commission's files. Of the 19 site
 visit reports we reviewed, transaction testing was only required to be performed for program year 1998-
 99; however, the Commission was not able to provide documentation supporting the specific
 transactions tested. Further, the Commission's policy is to select only three members files for detail
 testing during each site visit. This sample size may be too small to be representative of the population
 for larger subgrantees.

        Review of Performance Measures and Program Results

The Commission relies on its subgrantees to accurately report program results. The Commission also
relies on general acknowledgements that program events have occurred instead of documentation that
will adequately support the statistics included in reported program results. Evidence of data verification
of the program result statistics found on the subgrantee Annual Accomplishment Reports (AAR) while
present in the subgrantee files, did not adequately support the program results stated within the AAR.
Also, the Commission's procedures do not outline specific procedures for obtaining documentation to
verify program results.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its evaluation and
monitoring of subgrantees as follows:

    Develop and implement procedures to test both fiscal and programmatic selected transactions during
    site visits on an annual basis (Member eligibility, prohibited activities, allowability of costs). The
    number of files selected for transaction testing should be increased to provide a more representative
    sample of the population, and the items selected for review should be specifically identified in the
    site visit documentation.
    Establish an internal review procedure to ensure site visit documentation is comprehensive,
    complete, and retained in subgrantee files for future reference.
   Develop and implement written procedures to verify the accuracy of reported subgrantee
   performance measures and program results during site v~sits.Specific items verified should be
   identified in the site visit documents included in subgrantee files.



This report is intended solely for the information and use of the Office of the Inspector General, the
management of the Corporation for National and Community Service, the management of the Maine
Commission for Community Service, and the United States Congress and is not intended to be and
should not be used by anyone other than these specified parties.
                                 Commission Funding                           Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding
over the past six program years.


     Funding
      Source        1994-95      1995-96      1996-97       1997-98       1998-99     1999-2000

CNS Formula
Grant Funds

CNS Competitive
Grant Funds

CNS Learn and
Serve Funds

CNS PDAT
Funds


CNS Admin
Funds


Subtitle H


America Reads

Promise Fellows

State Matching
Funds
                           Commission Funding                       Appendix A




                      Corporation for National Service

    Funding to the Maine Commission for Community Service - 1994-95




              Americorps                    PDAT         Administration
                Formula                     Funds            Funds
                 Funds                                     $ 131,947
               $ 276,100                   % 65,000          Match
                                                           $23,285




                  I




         Total CNS Funds Retained by the Commission $ 196,947


I               Total Commission Matching Funds $23,285
                                                                           I
           Total CNS Funds Awarded to Sub-grantees $ 276,100



                                      *
                                 Americorps
                                  Formula:
                                  $276,100

                                    Match
                                   $276,100

                                Total # of SUBS
                                        I

                                Total # of Sites
                                       1




                                      A.2
                                Commission Funding                         Appendix A



                            Corporation for National Service

    Funding to the Maine Commission for Community Service - 1995-96




Amencorps
  Formula
   Funds              Funds                  Funds                         $ 176,271
 $ 3 19,500          $276,000              $ 148,000        $70,000

                                                                           $ 39,323




    v
              Total CNS Funds Retained by the Commission $ 246,271

                     Total Commission Matching Funds $ 39,323

               Total CNS Funds Awarded to Sub-grantees $743,500




                  Americorps         Americorps         Learn & Serve:
                   Formula:          Competltwe:
                   $ 3 19,500         $276,000

                     Match               Match              Match
                    $305,822            $98,952            $40,905

                 Total # of SUBS    Total # of SUBS     Total # of SUBS
                         1                  1                  1

                 Total # of Sites    Total # of Sites   Total # of Sites
                        I                   1                  I
                              Commission Funding                          Appendix A



                             Corporation for National Service

         Funding to the Maine Commission for Community Service - 1996-97




Amencorps      Americorps        Learn and       Subtitle H     PDAT         Administration
  Formula      Competitive         Serve           Funds        Funds            Funds
   Funds          Funds            Funds                                       $ 201,608
 $316,104       $ 175,255         $52,317        $2 18,220      $96,000
                                                                                 Match
                                                                                $45,035




 1
     v             *                v               v             v               v
              Total CNS Funds Retained by the Commission $ 297,608

                       Total Commission Matching Funds $45,035

                Total CNS Funds Awarded to Sub-grantees $ 76 1,896
                                  Commission Funding                               Appendix A



                                Corporation for National Service

        Funding to the Maine Commission for Community Service - 1997-98
                                                                                                  I




    Americorps        Americorps            Learn and           PDAT             Administrat~on
      Formula         Competitive             Serve             Funds                Funds
       Funds             Funds                Funds                                $ 143,385
     $454,814          $ 726,600             $1 26,500         $   96,000
                                                                                    Match
                                                                                   $53,577




I
        v                   v                    v                  v                  v
                 Total CNS Funds Retained by the Commission $239,385

                       Total Commission Matching Funds $ 53,577

                  Total CNS Funds Awarded to Sub-grantees $ 1,307,914

i


                          v                      t                    v
                     Arnericorps           Amencorps          Learn & Serve:
                      Formula:             Competltlve:
                      $454,814              $ 726,600              $ 126,500

                        Match                 Match                 Match
                       $465,604              $800,394              $53,200

                    Total # of SUBS       Total # of SUBS     Total # of SUBS
                            3                     2                   1

                    Total # of Sites       Total # of Sites   Total # of Sites
                           30                     7                  1
                                         Commission Funding                                         Appendix A




                                       Corporation for National Service

        Funding to the Maine Commission for Community Service - 1998-99




Amencorps                Amencorps               Amenca            Promise         PDAT               Administration
 Formula                 Competitive              Reads            Fellows         Funds                   Funds
  Funds                    Funds                  Funds             Funds                              $   126,510

$465,009                  $698,856              $   148,750       $ 125,000      $190,000                  Match
                                                                                                       $   118,576




                                v                     v               t              v                      v
                     Total CNS Funds Retained by the Commission $ 3 l6,5 10

 I                              Total Commission Matching Funds $ 118,576

                       Total CNS Funds Awarded to Sub-grantees $ 1,437,615

 I

                  v                        v                      t                    v
             Amencorps                 Amencorps                 America            Prom~se
              Formula:                 Competitive:                                Fellows:
                                                                  Reads:




                                , , ,, ,
              $465,009                  $698,856                                   $ 125,000
                                                                 $148,750
               Match                     Maich                                       Match
                                                                  Match
              $467,822                  $955,412                                      $0
                                                                 $48,662
           Total # of SUBS           Total # of SUBS          Total # of SUBS    Total # of SUBS
                   3                         2                        1                  1
                                                              Total # of Sites
            Total #24
                    o f Sites       lTO~~:;fsites,                               Total # of Sites


                                                                     12                ,,
                                              Commission Funding                                Appendix A



                                          Corporation for National Service

         Funding to the Maine Commission for Community Service - 1999-2000




Americorps
 Formula
  Funds

$439,405




                        Total CNS Funds Retained by the Commission $ 2 19,058

                                 Total Commission Matching Funds $ 119,065

                             Total CNS Funds Awarded to Sub-grantees $ 1,727,803
   I

               v                         v                  v                                        v
        Americorps                 Americorps            Arner~ca           Promise            Subtitle H:
         Formula:                  Competitive:           Reads:            Fellows:
           $439,405                 $720,000             $102,898           $128,000            $337,500

             Match                     Match              Match              Match               Match




       1 1 1 1 1 1 1 1 1 #lof 1
           $, 654,222                % 986,526           $104,898              $0               $225,000

       Total # of SUBS           Total # of SUBS      Total # of SUBS    Total # of SUBS     Total # of SUBS


       Total         sites        Total ;of   sites   Total #:of sites        ;f     sites   Total       Stes
                           Detailed Engagement Objectives
                                  and Methodology                                  Appendix B

Internal Controls


Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's ArneriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; eligibility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Commission to the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    Of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    As to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    As to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if selection officials signed conflict of interest forms for each subgrantee applicant
tested annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    Make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    Make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and slull mix are conducive to effective grant administration;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

   Make a preliminary assessment as to whether the Commission provided adequate guidance
   to subgrantees related to maintenance of financial systems, records, supporting
   documentation, and reporting of subgrantee activity;

   Make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms, change of status forms); and

   Determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of submitted Financial
Status Reports and progress reports. We also preliminarily assessed whether the Commission's
implementation of Web Based Reporting System (WBRS) had enhanced the grant administration
process.

Evaluating and Monitoring Subgrantees

Our objectives were to:

   Make a preliminary assessment of the adequacy of the systems and controls utilized by the
   Commission, in conjunction with the Corporation, to implement a comprehensive, non-
   duplicative evaluation and monitoring process for their subgrantees;

    Determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    Make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    Make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A- 133 audit reports, where applicable;

    Determine whether program goals are established and results are reported and compared to
    these goals;

    Make a preliminary assessment of internal controls over service hours and program
    accomplishment reporting; and
                         Detailed Engagement Objectives
                                and Methodology                               Appendix B

   Make a preliminary assessment of the adequacy of the procedures in place to evaluate
   whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.
                                                                                  r   .
             The Maine Commission for Community Service
                       Maine State Planning Office, Executive Department
                                   38 State House Station, Augusta, ME 04333
                  voice: (207) 287-5313 0 facs: (207) 287-8059 0 email: mccs@state.me.us
                                          www.state.me.us/spo/mccs


                                                                                           January 10,2001
Dean A. Reuter
Deputy Inspector General for Audit and Policy
Office of Inspector General
1201 New York Avenue, NW
Washington DC 20525

Dear Mr. Reuter:
         This letter constitutes the response of the Maine Commission for Community Service to the draft
"Pre-Audit Survey of the Maine Commission for Community Service" dated October 27,2000 (OIG
Audit Report Number 01-19). We note that the the absence of any significant findings in this report
reflect the presence of excellent grant administration systems at the Commission as well as the strong
working relationship with the State Planning Office. As happens with the start up of any program, there
were issues in the early years which have been overcome as an understanding of the program regulations
has developed.
         Before addressing your findings and recommendations, we would like to point out two factual
errors. The first is on page 3, paragraph 2, in the listing of Commission employees. The Director of
Finance is not an employee of the Commission but, rather, the State Planning Office. The fourth
employee of the Commission is an administrative assistant.
         The second error is in Appendix A: Commission Funding. The flow chart box labeled "Education
Only Award Funds" shows grant moneys of $337,500. In fact, the single Education Award Only project
awarded through the Commission has administrative or grant funding associated with it. All costs of
operation are underwritten by the sub grantee, the University of Maine Cooperative Extension Service.
The funds noted on your chart as Ed Award Only are, in fact, the grant moneys associated with a Sub H
Governor's Initiative demonstration project which happens to function much like a Sub C AmeriCorps
program but is not, in fact, governed by that funding stream.
         In our response, the comments from the Survey Report appear in italics with references to the draft
page numbers. Our notations follow immediately.
Page 5. Evaluation of Grant Applications.
         During our review we noted that the peer review forms used to evaluate grant applicants do not
include the names of the individuals who reviewed the applicants. Since the reviewers' names are not
disclosed on the review form, it is diflcult to establish a connection between each reviewer and his or her
corresponding signed conjlct of interestforms.
         While it is true that reviewers do not sign the paper rating form (and we note that no
 recommendation was made in connection with this finding), the Maine selection process does have
 reviewers develop questions for the second step of the selection process: an interview of applicants by all
 review panel members. Each reviewer develops questions for the proposal he or she reads and scores. The
 questions are submitted to the commission for formatting prior to the interview which results in the
 commission having faxes and other communication from reviewers that does tie them directly to the
 applications they read and scored. Thus, the scoring sheets for the pure paper review (step one in our
 process) are not the only documents available to make the link between reviewer and application.
Page 6. Administering Grant Funds: WBRS Access Controls.
        Develop and implement control procedures to restrict the level of access authority granted to the
different users of WBRS, as appropriate.
        This recommendation appears to be a direct tie to the report's observation that there are several
profiles for a single individual at the sub grantee level and that more than one individual is designated to
share a single set of authorizations in the system.
        The WBRS system has four sub grantee level roles which were designed to accommodate the
widely varying sizes and administrative practices of sub grantees in states. This means that in one large
agency which operates two separate ArneriCorps grants, the administrative staff (two individuals) who are
accountable within agency policies for fiscal reporting and program activity reporting are designated as
Program Director and Finance Director for each of the grants.
        At the other end of the spectrum is a very tiny nonprofit in which the single staff person has been
given two titles corresponding to Program Director and Finance Director by the local board. The
individual logs into the WBRS system according to the functions to be carried out during that session.
Again, this reflects the non profit's checks and balances which the Commission is fully apprised of as part
of the contracting process.
        In the middle of the spectrum is an agency which confers authority according to the role various
administrators have in the program. Thus, three peopIe end up with WBRS Program Director profiles but
the work they do in WBRS is restricted to data that matches their job responsibilities in the program. For
example, the person responsible for all Member forms and time approves only those documents.
        The Commission maintains that its practice is appropriate and conforms to the standards applied to
the paper reporting system used by the Corporation prior to the 1999-2000 year. The Commission looks
to the internal controls and delegation of authority in each sub grantee for assurance that the individuals
approving documents have the authority to do so. The Commission asks each sub grantee to provide two
forms during the contracting process. The first asks the nonprofit board or public agency to identify by
name or job title the persons authorized by their job descriptions to enter into contracts. That same form
asks the sub grantee to identie which individual in the organization is authorized to submit official
financial reports. (This information is then noted in WBRS as part of the Grantee Information Profile.)
        On a second form, the sub grantee identifies the individuals who should be associated with each
WBRS role. They do this in the context of instructions from the Commission that assignment of authority
should directly reflect authorities evident in either a person's job description or agency policy. The WBRS
audit trail then provides the Commission with a quick and direct check that the agency's own rules
regarding signatures and accountability are being followed as reports are filed during the grant period.
        In its role as a lead designer of WBRS, this Commission points out that the terms "Program
Director" and "Finance Directorn as used in WBRS are role titles for functiom in the system (i.e.,
functions associated with Program versus functions associated with Finance). They are not, and have
never been intended to reflect, job titles in sub grantee operations,
Page 6. Administering Grant Funds: Timely Submission of FSRs
         Enforce procedures to ensure compliance in the preparation and timely submission of FSRs. In
addition, we recommend that the Commission enforce its policy regarding emailing sub grantees when
their FSRs are late.
         The Commission notes that, of the 12 Administrative FSRs identified as being submitted after the
deadline, 7 were less than 10 days late. All the late AmeriCorps FSRs were the direct result of late
submissions by sub grantees which did prompt the commission to not just email but call the preparers to
 impress on them the need for urgency in complying with the reporting deadline. The combination of
 phone calls and emails generally brings the desired result.
Page 6. Administering Grant Funds: Control Weaknesses over Drawdowns
      During our review, we noted that support for a $38,292 drawdown made during program year
1994-95 did not provide specific information on expenses being reimbursedfor the Commission's
Administrative grant.
        Prior to the arrival of the preaudit survey team, the Commission and its administrative agency had
notified the manager that the state has a system for archiving records that is not easy to access on short
notice. A request was made for a list of documents which should be on hand so that any in the records
archiving system could be retrieved. Such a list was not provided but the Commission and others did use
common sense to determine what documents might need to be available. In the case of the drawdown
mentioned, documentation was not retrieved from archives because the need for it was not evident from
the information provided by the audit team.

Page 7. Evaluating and Monitoring Subgrantees: Testing transactions.
       Develop and implement procedures to test bothfiscal and programmatic selected transactions
during site visits on an annual basis (Member eligibility, prohibited activities, allowability of costs). The
number offiles selected for transaction testing should be increased to provide a more representative
sample of the population, and the items selected for review should be specifically identified in the site visit
documentation.
and
Page 7. Evaluating and Monitoring Subgrantees: Internal Review Procedure.
      Establish an internal review procedure to ensure site visit documentation is comprehensive,
complete, and retained in sub grantee files forjkture reference.
and
Page 8. Evaluating and Monitoring Subgrantees: VerlfLing sub grantee program results.
        Develop and implement written procedures to verifL the accuracy of reported sub grantee
performance measures and program results during site visits. Specific items verified should be identified
in the site visit documents included in sub granteejiles.
         The Commission notes with interest (and a good deal of concern) that the language in the Survey
Report is sufficiently different from that of the preliminary findings we signed at the October 27 exit
conference as to mislead readers of the Survey Report. The wording of preliminary findings shared in the
exit conference on October 27 is closer to an accurate portrayal of the facts. As all 13 participants in that
meeting can attest the Commission stated strong exceptions to many aspects of those fmdings during that
exit conference.
         The Survey report states that "the Commission could not provide adequate documentation
supporting annual program and fiscal reviews for the 19 subgrantees' site visits we selected for review".
Not true. If even the Prelhhmy Findings of the audit team were accurate as stated on October 27, "9
program files did not contain supporting documentation for program site visit reports", that leaves 10
program files with documentation to support the site visit reports. Furthermore, we point out that in no
instance was a file found to be lacking a site report. In the 9 cases questioned, the Commission contends
that its review of community feedback, observation of site activity, review of program portfolios and
training agendas on site is sufficient and there is no need for the Commission to keep copies of this
verifying evidence in its files.
         A difference of opinion on what constitutes evidence also contributes to the finding that 9 cases
lacked supporting documentation. The Commission asserts that third party c o n f i a t i o n of work
performed such as news paper reports, public acknowledgments, and other source materials for qualitative
analysis are legitimate documentation of program activities.
        Furthermore, the contract between the Commission and sub grantees has a specific clause which
addresses this issue of maintaining documentation at the local level. The pertinent clause (which appears
in all State of Maine contracting and grant documents) is intended, in part, to place the burden of housing
records on the sub grantee and not the grantee, in this case the Commission. The clause reads:
       "The sub grantee will establish a system to document the progress of implementation, expenditure
      of funds, compliance with applicable federal grant provisions, and quality of results achieved. Such
      documentation will be the basis of periodic reports to the Corporation for National Service and
      regular reports to the designated Commission oversight committee. These records may be reviewed
      at any time by the designated Commission staff or members of the Commission. Furthermore, said
      records and documentation - paper copies, electronic files, and other formats - are the property of
      the Commission and, upon request, shall be turned over to the Commission. For the duration of this
      agreement, the Commission charges the sub grantee with holding, protecting, and retaining the
      materials until the work is completed. During this period, the Comrnission may inspect
      documentation and records pertaining to this grant."
       On a related matter, the PreAudit Survey report states that "14 fiscal review checklists ... Were
missing from the Commission's files." That is not true.
        For one thing, there is no such document as a "fiscal review checklist" in this Commission. The
issues that are fiscal are listed along with program issues in a single compliance assessment tool.
Furthermore, three files reviewed by the audit team were fiom years before the compliance checklist was
developed which means the information would not be found in the compliance checklist format.
       In addition, five of the program files deemed to have insufficient supporting documentation ("the
Commission was not able to provide documentation supporting the specific transactions tested) did have
a report of findings by the qualified fiscal reviewer as well as a compliance assessment tool on which the
fiscal portion was complete. In four cases, the review was carried out by a contracted Certified Public
Accountant with program compliance review experience. She filed a multi-page report for each sub
grantee with details of procedures carried out and findings along with the completed compliance
assessment tool. According to the audit team, the "insufficient supporting documentation" was the
absence of her working papers. As the audit team acknowledged in the exit conference, those working
papers would be the property of any such contractor and would not be turned over to us for inclusion in
official files.
         A fifth file was representative of six fiscal compliance reviews conducted in one year. It also had
a full report of findings and compliance. The reviews were conducted by the Chief Financial Officer of
State Planning Office who is a former state auditor. They were conducted according to normal fiscal
assessment procedures but, again, the working papers were not filed in the sub grantee files. The
Commission has not been presented with a convincing argument or justification for requiring that such
working papers should become part of official grant records.
       The Commission notes that two programmatic reviews were deemed to have insufficient
documentation merely because there was only one check mark in the rating boxes next to the member
compliance items rather than three to indicate that three records had been reviewed. The Commission is
not convinced it is necessary to change this practice since the compliance assessment is intended to reflect
the overall status of sub grantee processes and procedures (the ratings are "total compliance", "partial
compliance", and "no compliance"). It is not intended to be documentation of the procedures performed
during a site review. The observation of the audit team is considered a professional difference of opinion.
       The Survey report states that the Commission performs fiscal reviews every third year during sub
grantee site visits. In fact, the policy is to conduct the fiscal reviews during the first year of a three year
grant cycle. The review is timed so that enough activity has occurred to determine the strength and
accuracy of the system with regard to accounting for CNS grant funds. All but one of the sub grantees is
an organization that receives other federal funds that aggregate to an amount which triggers an A133
audit. (It is noted that for sub grantees not required to have A133 audits, the Commission grant contract
with sub grantees requires a program audit for each budget period.) The Commission asserts that, if an
organization's accounting system is not only strong according to its most recent audit but also has
accommodated the particular needs of AmeriCorps grants based on a Commission site review, it is not
necessary to repeat on-site visits during the second year unless a subsequent organizational audit uncovers
issues that could relate to these funds. The likelihood that an accounting system structured to comply with
OMB circulars and manage much larger federal grants would treat differently such a small grant as the
typical Amencorps grant in Maine ($1 50,000) is extremely small. Likewise, a fiscal review in the year
which is close out of the grant is a redundant exercise since the close out will involve some of the same
procedures.
        The absence of on-site transaction testing does not mean that fiscal monitoring does not occur.
This is particularly true in light of the WBRS fiscal tools that are used by the Commission. Not ody does
the Periodic Expense Report require organization's to repeatedly compile expense reports against the
budget but, also, the Maine Commission requires all programs to submit a Quarterly Income Report (an
optional WBRS tool). The Income Report is a list of the donors/sources of cash and inkind revenue that
asks whether each contributor is private or public or nonprofit or for profit. This information allows the
Commission to monitor issues off site and compare the information to other sources such as audit reports
or annual reports of the organization.
       Finally, the Survey report states "this sample size [three member fiIes] may be too small to be
representative of the population for larger sub grantees." The Commission points out that from 1994
through 1999, a sample size of 3 represented 10% of the largest corps and 25% of the median corps size
for Maine AmeriCorps programs. Since the size of corps may fluctuate or increase in the future, the
Commission will consider converting the sample size to a percentage of the total corps. However, the
Commission maintains that its site visits are not audit techniques incorporating random sample sizes to
meet defmed confidence levels. Site visit reviews are primarily to ensure that certain processes are in
place. We rely on A133s and other audits for specific reviews when necessary to monitor changes in risk.
        In closing, we appreciate the opportunity to respond to the contents of the Preaudit Survey Report.

Sincerely,
                                       n



~ a i A.~ Van
          h Den Bossche, Director of ~inance.
Maine State Planning Office




~ a & ~ommihsion
      e        for Co          unity Service
                                                                                              Appendix D




                 Memorandum

                 TO:                                                                                           CORPORATION
                                                                                                               FOR NATIONAL
                 THRU:

                 FROM:

                 DATE:             January 12,2001

                 SUBJECT:          Comments on the OIG Draft 0 1- 19: Pre-Audit Survey of the Main,e
                                   Commissionfor Communig Service


                 We have reviewed the draft pre-audit survey of the Maine Commission for Community
                 Service and are pleased to note that the Maine Commission:

                            +   conducts an open competitive process for its subgrant selections;

                            +   has adequate controls, policies and procedures to administer the Corporation's
                                grant funds; and

                            +   has established controls to evaluate and monitor subgrantees.

                 The report contains six findings and five recommendations. This letter comments on several
                 of the key issues.

                 In the report, two areas of improvement were identified regarding the Commission's process
                 for Administering Grant Funds: WBRS access controls and control weaknesses ovcr
                 drawdowns. The first finding states that the "integrity of the reporting process through
                 WBRS could be compromised with users gaining access to levels of authority that do not
                 coincide with their employees profiles." This conclusion is based on one instance where an
                 individual is designated as both Program Director and Finance Director and another two
                 individuals who are designated as Program Director. The report recommends that the
                 Commission, "Develop and implement control procedures to restrict the level of access
                 authority granted to the different users of WBRS,as appropriate."

                  The Corporation does not agree with this finding. The WBRS system has four subgrantee
                  level roles, which were designed to accommodate the wide variance in size and
                  ~ a t i y e p ~of isubgrantees ~ s      in states. Thus, it is possible, and expected, for two
                                e-r@ p {wid WBRS "Program Director" profiles for some subgrantees. Such
',


j i-
     i,
     '

          I
              ---
                  of its staff.
                        L   1
                                   &+rtdt:by the program based on the organization's needs and the experience
                                         ‘


                                        AI
                                            i
                                             I;!
                                              -




                                                   1
                                                                                                              wrbmpmpDCP525
                                                                                                                 Te*pbooc   -
                                                                                                              1201 New ~ o r l r N
                                                                                                                            A V ~ ~ W .
Ms. L a ~ s eJordan                       Page 2                              January 12.200 1



In addition, WBRS allows programs to assign responsibilities at the same level as any paper-
based grant award system. Thus, the grantee determines and assigns appropriate roles and
responsibilities to staff. Further, the terms "Program Director" and "Finance Director" as
used in WBRS are role titles for functions in the system. There is no inherent conflict in these
roles either being done by the same individual or two individuals sharing roles. Finally, an
individual logs into the WBRS system according to the functions to be carried out during that
session. There is an audit trail for the actions taken by each individual during a session.
Thus, we do not agree that the integrity of the reporting process is compromised.

The second finding identifies a control weakness over drawdowns. The report states that
"During our review, we noted that support for a $38,292 drawdown made during program
year 1994-95 did not provide specific information on expenses being reimbursed for the
Commission's Administrative grant." There was no recommendation for this finding. The
Corporation does not agree with this finding. While the Maine Commission stated that they
had the records for this drawdown and disagree with this finding, we wanted to point out that
Commissions are not required to perform specific expense reviews on a given drawdown nor
is it the Corporation's expectation that they do so. It is up to the Commission to establish its
own procedures with respect to drawdowns, which may be done on an advance basis or as
needed.

In the section, Evaluating and Monitoring Subgrantees, two areas of improvement were
identified: lack of adequate program review documentation and review of performance
measures and program results.

The first finding states that the Commission could not provide adequate documentation to
support their program and fiscal reviews, specifically citing lack of documentation
supporting the specific transactions tested. In addition, the sample size tested by the
Commission is questioned. The recommendation for this area implies that the Commission
should implement procedures to perform both fiscal and programmatic testing of selected
transactions using audit sampling and documenting techniques, and that they be performed
on an annual basis at each location.

The Corporation is concerned that the auditor's recommendation is attempting to direct the
establishment of arbitrary, exacting standards for the Commission's monitoring of its
programs. The report recommends that program managers use audit techniques including
sampling and the performance of specific programmatic and fiscal reviews for every award
on an annual basis, concepts not normally associated with or required by Federal
management standards as articulated in OMB Circulars A- 102, A- 110 and A- 133.

 However, the Corporation advocates a risk-based strategy for monitoring of programs that
 considers the experience, organizational history and past performance, including both
 programmatic and financial elements. The Corporation, like other Federal agencies, requires
 its grantees and subgrantees to use the OMB Circular A-133 audit as the primary basis for
 fiscal oversight of its awards. These audits cover the entire operations of the subgrantee
 including internal controls and compliance with laws, regulations and award provisions. For
Ms. L u ~ s eJordan                      Page 3                             January 17.700 1


organizations not required to have an A-1 33 audit, the Commission needs to consider what. if
any, additional procedures it needs to assure adequate oversight. OMB Circular A-101,
addressing Administrative Standards and adopted by the Corporation in regulation, also
addresses high-risk grantees and consideration for additional monitoring by the Commission.

Thus, we do not agree with a 'cookie- cutter'standard of site visit reviews and performance
of supplemental audit techniques as recommended in the report. The Corporation will
coordinate and work with the Maine Commission to assure that their monitoring strategy for
subgrantees is risk-based and adequate during the upcoming Standards review in the sprliig
of 2001.

The second finding in this section addresses performance measures and program results.
While the Commission did maintain information on subgrantee's accomplishments. the
auditor appears to question the adequacy of information retained at the Commission.
However, the Corporation expects that detailed information supporting performance to
generally be maintained at the subgrantee's organization as required by record retention
requirements in the award. The Corporation also does not agree with the auditor's
recommendation to implement procedures to verify accuracy of reported subgrantee results
during every site visit. Verification of results may come from and be obtained in a variety of
ways such as feedback from stakeholders, survey of service-recipients or even as part of
formal or informal evaluation efforts.
